SUPREME COURT OF THE UNITED STATES
No. 20-54

BRIDGE AINA LE‘A, LLC,
Petitioner,
Vv
STATE OF HAWAII LAND USE COMMISSION,

Respondent,

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I certify that on August 21, 2020, I
caused the BRIEF OF AMICI CURIAE OWNERS’ COUNSEL OF AMERICA,
NATIONAL ASSOCIATION OF REVERSIONARY PROPERTY OWNERS,
NFIB SMALL BUSINESS LEGAL CENTER, REASON FOUNDATION, AND
PROFESSOR SHELLEY ROSS SAXER, to be served upon the following by
delivering the brief to a commercial carrier for delivery to the above parties
within three calendar days.

Michael M. Berger

Manatt, Phelps & Phillips LLP
2049 Century Park East

Suite 1700

Los Angeles, CA 90067

Kimberly Tsumoto Guidry
Department of the Attorney
General, State of HI

425 Queen St.

Honolulu, HI 96813

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 21, 2020. .

    

       

MA 20 R) HEARNE, II
Cofinsel of Record for Amici Curiae
